Office of the Inspector General
Skip to content
Social Security Online
Office of the Inspector General
www.socialsecurity.gov
Home  |  Questions?  |  Contact
Us
Search
About
Hotline
Offices
Resources
Español
OIG Home
Audit
Report - A-06-96-62001
Office of
Audit
The Adequacy of the Residency
Verification Process for the Supplemental Security Income Program
- A-06-96-62001 - 5/29/97
This final report provides you with the results of
our review of the residency verification process for the Supplemental
Security Income (SSI) program (A-06-96-62001). The objective was
to determine if: (1) listings of addresses with multiple recipients
could be useful to field offices (FO) in identifying nonresident
recipients, (2) home visits are effective for verifying residency,
and (3) program operations instructions provide adequate guidance
to FOs for verifying that recipients are United States (U.S.) residents.
Although address listings can be useful to FOs in identifying
SSI recipients whose residency is questionable, such information
is not readily accessible to FOs because of system limitations. The
FOs cannot query recipient addresses through their computerized system,
and recipient address listings that the Social Security Administration
(SSA) has developed contain unstructured address information. SSA
should consider establishing a process that FOs can use to identify
SSI recipients based on either names or addresses.
The results of the home visit residency verifications
conducted by the Chula Vista FO in California demonstrate that home
visit verifications are effective in verifying U.S. residence for
SSI recipients. From a targeted population of 233 recipients, 47.2
percent did not live at the residence of record. The FO identified
63 recipients who were overpaid $385,443 because SSA was unaware
that they were not U.S. residents and were, therefore, ineligible
for SSI benefits. SSA should increase resources for conducting home
visits by using private contractors or making staff available.
Program operations instructions do not require adequate
development in cases where a question persists as to the individual`s
eligibility due to residency. Current procedures allow SSA to make
SSI benefit awards to individuals based on testimonial information
without obtaining documentary evidence to support their U.S. residency.
The instructions can be improved by providing for additional actions
such as home visit residency verifications for
SSI cases that FO staff believe need further development.
Additional resources are needed to implement such actions.
SSA agreed with our recommendations. The full text
of the Agency comments is in Appendix B of the report.
Back to top
INTRODUCTION
BACKGROUND
The Social Security Act (Act) (Section 1614(a)(1)(B)(i))
requires that an individual must be a resident of the U.S. to be
eligible for SSI payments. The Act also stipulates that no individual
will be eligible for SSI payments for any month during all of which
the individual is outside of the U.S. (section 1611(f)). Further,
after an individual has been outside the U.S. for a period of 30 consecutive
days, that person shall be treated as remaining outside of the U.S.
until he or she has returned and been in the U.S. for a period of
30 consecutive days (Section 1611(f)). Except for section 1611(f),
the Act is silent regarding minimum requirements for length of residency
in the U.S.
SSA has taken some action to address the need to verify
U.S. residency for SSI recipients who live near the U.S.-Mexico border.
Significant actions taken by SSA include: (1) contracting with a
private vendor to conduct a pilot of home visit residency verifications
for selected cases, (2) holding a combined Dallas and San Francisco
FO conference to address problems that border FOs encounter in verifying
residency of SSI recipients, (3) revising procedures to strengthen
the residency development process used by FOs, and (4) working with
the Office of the Inspector General on the Southwest Tactical Operations
Plan to determine the nature and extent of residency issues in El
Paso, Texas.
The contract to perform home visit residency verifications
was a pilot project for the Chula Vista, California FO. The original
contract covered the period February 27, 1996 through August 26, 1996.
SSA has extended the contract period to a full year and is in the
process of extending the contract for an additional period. The Chula
Vista FO selected the recipients for home visit residency verifications
based on various sources, including: (1) Office of the Inspector
General generated address listings containing multiple recipients
at the same address, (2) FO staff referrals of suspicious SSI cases
identified during the initial application or redetermination process,
and (3) State agency or third party referrals of other suspicious
cases.
SCOPE
Our review was conducted in accordance with generally
accepted government auditing standards. The objective was to assess
the potential effectiveness of address listings and home visits,
as well as the adequacy of current procedures used by FOs for verifying
the residency status of SSI recipients living near the U.S.-Mexico
border.
Our review consisted primarily of monitoring progress
reports from the Chula Vista FO and its contractor regarding the
results of home visit residency verifications and reviewing SSA`s
program operations procedures concerning the development of residency
determinations. We also visited the Chula Vista FO and attended the
SSA border conference in San Diego, California. A test of the Chula
Vista FOs compliance with program operations procedures for
residency development was not required to satisfy the objectives
of this review. Our review was conducted primarily at our office
in Dallas, Texas. Field work was conducted from April 1996 through
November 1996.
To assist the Chula Vista FO in identifying potential
suspect cases, we provided a listing of 41 addresses which listed
3 or more SSI recipients at each address; this list included a total
of 133 recipients. We developed the listing from computerized data
that SSA provided during prior audit work. The FO referred 31 of
the 133 recipients to the contractor for home visit residency verifications.
Based on the results of the contractors home visit residency
verifications and/or FO development, Chula Vista FO staff determined
the recipients eligibility and calculated overpayments for
ineligible recipients. We did not verify the information provided
by SSA.
Back to top
RESULTS
OF REVIEW
MULTIPLE RECIPIENT ADDRESS LISTINGS
Address listings can be useful to FOs in identifying
questionable residence addresses for SSI recipients. In September
1995, we provided the Chula Vista FO with a list of 41 addresses
in which 3 or more SSI recipients claimed residency at the same address.
The FO included 31 of the 133 recipients from this list in its pilot
project involving contracted home visit residency verifications.
Of the 31 recipients, the contractor found that 18 (58.1 percent)
did not live at the residence of record, including 7 who lived outside
the U.S. Accordingly, the FO suspended payments to 11 recipients
and placed the 7 recipients who lived outside the U.S. in nonpay
status. Of the remaining 13 recipients, the contractor verified that
9 were living in the U.S. and 4 were unverified and scheduled
for revisits.
Although address listings could be useful to FOs, such
listings can only be obtained through special requests from SSA systems
staff in Baltimore, Maryland. The border FOs did not have routine
access to computerized address listings for verifying residency.
Supplemental Security Record Address Information
In obtaining an extracted computer file of SSI records,
we noted that the address field in the Supplemental Security Record
(SSR) was not standardized. Without defined data segments within
the address field, the information was inconsistent in its location
from record to record. For some records, the data information began
with the payee`s name, while for others the information started
with either the street address or with an establishments name.
As a result, the addresses could not be readily compared or analyzed
without the use of special processing techniques and manual screening.
For example, the following addresses for four different
individuals (names excluded) appear to be the same, although they
have two different zip codes. Note that the street name, 4th Avenue,
was inconsistently recorded. Also, the name of the establishment
was not included in the second listing, and the city and State appear
in different locations in the record depending on the length of the
preceding information. This layout prevents a particular address
element, such as the street name, to be used to identify all SSI
recipients claiming the same residence address.
The information is illustrated as it appeared in the
SSR records.
Ø CHULA VISTA INN, 171 FOURTH AVE, CHULA VISTA, CA
92010
Ø 171 4 AVE CHULA VISTA, CA 92010
Ø CHULA VISTA INN, 171 4TH AVE, CHULA VISTA, CA 91910
Ø CHULA VISTA INN 171 FOURTH AVE CHULA VISTA, CA
91910
An address search capability would be useful to border
FOs as a means of cross-checking recipient addresses. With such a
feature, claims representatives (CR) could determine if recipients
were claiming the same residence address, or using questionable addresses
such as that of a business or other establishment. However, to allow
such cross-checking may require SSA to develop separate fields for
each of the data elements presently contained in the single address
field.
EFFECTIVENESS OF HOME VISIT RESIDENCE VERIFICATIONS
Based on the private contractor`s home visit residency
verifications, the Chula Vista FO determined that 110 of the 233
suspect cases (47.2 percent) did not live at the residence recorded
on the SSR. A total of 57 recipients did not live in the U.S. and
were ineligible for continued payments. The FO suspended payments
for an additional 53 individuals who could not be located, pending
further residency development.
The results of the home visit residency verifications
are summarized in the table below.
Results of Contractor Home Visits
to Selected SSI Recipients/Applicants
Number of Recipients
Percent of Total
Recipients did not live at address of record
--lived outside the U.S.; payment stopped or denied.
57
24.5
Recipients did not live at address of record
but actual address unknown; payment suspended pending
further development.
53
22.7
Payments stopped or denied for reasons
other than residency.
13
5.6
Recipients not at home and scheduled for
follow-up visits.
32
13.7
Recipients verified as living at residence
of record.
78
33.5
Total Number of Recipients Contacted
233
100.0
As of July 3, 1996, the Chula Vista FO had calculated
overpayments to 63 SSI recipients totaling $385,443 due to nonresidency.
These overpayments included 53 cases that the FO referred to the
private contractor and 10 cases that the FO independently developed.
The improper overpayments were the result of recipients
either providing inaccurate information to SSA when they initially
applied for SSI or failing to report a move outside of the U.S. while
receiving SSI benefits. These results indicate that stronger control
procedures, such as the home visit residency verifications, are needed
to determine the residency of recipients with questionable addresses.
ADEQUACY OF PROGRAM OPERATIONS PROCEDURES FOR RESIDENCY
DEVELOPMENT
The Program Operations Manual System (POMS) instructions
do not discuss the use of home visits to verify addresses for suspect
SSI cases. In general, the instructions specify that residency development
is required when doubt exists concerning whether an individual lives
in the U.S. (section GN 00303.740). The required development,
however, consists of obtaining evidence categorized as convincing
or secondary, including statements from disinterested third parties.
Convincing evidence includes documentation such as property tax records,
utility bills addressed to the claimant, U.S. drivers license,
record of volunteer activity or correspondence addressed to the claimant.
Secondary evidence consists of satisfactory answers to open ended
questions and statements from two reliable disinterested individuals
who have first-hand knowledge of the claimants U.S. residence.
There are no provisions for conducting home visit residency verifications,
although some FOs may conduct them if they have staff available.
SSA revised the POMS instructions in May 1995 to enhance
requirements for developing U.S. residency and documenting the development
process. The revisions expanded the number of circumstances which
raised doubt as to an individual`s U.S. residency and added a
blanket statement that questionable situations were not limited to
those specifically listed (see Appendix A for highlighted revisions).
The revisions added requirements that CRs document the results of
their residency determinations in cases where convincing evidence
could not be provided. Another revision was that statements from
individuals attesting to the claimants residency must be from
individuals who were reliable disinterested individuals who had first
hand knowledge of the claimants U.S. residence.
The revised instructions do not address situations
where CRs, after developing evidence to the extent required, still
have doubts about an individual`s residence. The instructions
do not address cases where an individual, who previously failed to
report a change in residency and was terminated for living outside
of the U.S., reapplies for benefits. Such cases should require more
verification of residency than initial claims because the individuals
were terminated for nonresidency and are reporting a new address
which will make them eligible once again for SSI benefits.
At some border FOs, CRs request home visit residency
verifications if further development is needed. However, this option
is not required by POMS and staff may not be available at all border
offices to conduct home visits. Without an incentive or the resources
to do home visit residency verifications, FOs may choose not to pursue
development beyond that which is required. If the residency of SSI
recipients is not adequately developed, SSA risks making payments
to ineligible nonresidents.
Back to top
RECOMMENDATIONS
We recommend that SSA:
1. Implement a process that FOs can use to search
for addresses of its SSI recipient population. The process could
involve developing a capability for FOs to search SSA`s computer
records directly or provide standard address listings that can
be used on personal computers.
2. Continue the practice of conducting home visits
by using private contractors or making staff available.
3. Revise POMS instructions to provide for expanded
residency development to verify questionable addresses of SSI claimants
and recipients (e.g., conducting home visits or researching third
party information).
AGENCY COMMENTS
SSA agreed with our recommendations.
David C. Williams
Back to top
APPENDICES
APPENDIX A
Comparison of POMS Requirements Before and
After the May 1995 Revisions
POMS before May 1995
POMS Revisions Effective May 1995
A. Operating Policy - General
Determine U.S. residency if there is an indication
that the individual is not residing in the U.S. Determine
residency in the following situations:
- The situation raises doubt as to U.S. residency;
e.g., the address is a rooming house that caters to a transient
population or a post office box or general delivery address
in a city or town near Mexico or Canada.
- The address is in care of another person;
or
- The claimant presents a grommeted I-151
; or
- The claimant presents a commuter I-551
(type 2).
3. Kinds of Doubtful Residency Situations
Question circumstances which raise doubt
as to U.S. residency, including but not limited to situations
such as:
a. The address is a rooming house that caters
to a transient population or a post office box or general
delivery address in a city or town near Mexico or Canada;
or
b. The claimant presents a grommeted I-551
or a commuter I-551 (both documents indicate the bearer
commutes to the U.S. to work); or
c. The address is in care of another person
(refer to GN 00303.740C.5. for development when the in
care of address is in a FO service area which borders Canada
or Mexico); or d.The address is near Mexico or Canada and
the claimant is filing out of service area.
e. The claimant declares that his/her spouse
lives in another country.
f. The claimant explains that
he/she lives with a "friend", but his/her family
is in another country.
B. Operating Procedure
1. SITUATION RAISES DOUBT
If there is an indication that the individual
is outside the U.S., question him/her concerning residency.
C. PROCEDURE - RESIDENCY DEVELOPMENT
If there is any doubt that the individual
resides in the U.S., question him/her concerning residency;
develop evidence to establish where the claimant lives;
and prepare a special determination or report of contact
to document your residency determination. Use the evidence
in 1. Or 2. below to develop residency.
3. EVIDENCE ESTABLISHING U.S. RESIDENCY
If the claimant does not have
any of the types of evidence listed above (a. through
I.), affirmative
answers to the questions below, along with the statements
of at least two reliable individuals who can state where
the claimant lives and the basis for their knowledge, in
conjunction with the SSA interviewer`s observations,
will generally establish U.S. residency. (Examples not
cited.)
2. Secondary Evidence
b. Statements from two reliable disinterested individuals
who have first-hand knowledge of the claimant`s U.S.
residence. (Examples cited including but not limited to:
employer, official of religious organization, landlord
or neighbor.)
Note: Underlining added to highlight significant
changes.
APPENDIX C
MAJOR CONTRIBUTORS TO THIS REPORT
Office of the Inspector General
Bill Fernandez, Director, Program Audits
Brian Pattison, Deputy Director
Paul Davila, Senior Auditor
Privacy Policy | Website
Policies & Other Important Information | Site
Map
Need Larger Text?
Last reviewed or modified